FILED
SEP 3 0 2020

0) A —

[. w-

OFFICE OF THE CLERK
SUPREME COURT, U,S

No.

IN THE
SUPREME COURT OF THE UNITED STATES
FOR THE SIXTH CIRCUIT

DAVID T. FRAZIER

— PETITIONER

(Your Name)
vs.
HF.RRF.RT ST.ATF.RY F.T.AT,

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO
INDIVIDUAL APPLICATION TO^JUSTICE ELANA KAGAN

SIXTH CIRCUIT COURT OF APPEALS

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

DAVID T. FRAZIER

(Your Name)
P,0, BOX 3000-MEB

(Address)
FORREST CITY AR, 72336

(City, State, Zip Code)

on
RECEIVED
JAN 2 2 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

QUESTION(S) PRESENTED
(1)

When
void
does
that

a Court enters
ab-initio, and
that start the
the judgments

a judgment that is later determined to be
a petitioner appeals from that decision,,
limitations period over, despite the finding
were void ab-initio?

c£) AFTZr /v coorf Ozcu o-nA a StATZAcc
J.LLZ2&J-J Qa&S fr MjJL,
pyoJ t r /q {jz-AVt
ffavr \/bkJ frhAMT&> S'&JTiMC'Z- jA/72^rj
C|) C-A/J A rLL&3M)3C (J$£cJ TO
gjffcxAOL
SUbSZ-HOZJT fgJzTO'L S&J&xZl
AH)Vr
SZJf&C*- _ZfTacn5
swr^Jct
OajJ TOaIAoSAj JOoSS 0L*
ho-u^ 7h£~
Tl£>hT
fttS /PzgofbTzd R'&AOT3TL<LM£UT'2
o
C^J Do£S Cl court hfr'JZTo'FoLLOuU 1ht UJU/lQ

of^ 3fo~3zJ VTJdrrnfT rtfo-c zru/sz.
(6) &°£-S

Cou^r ha-oz To ArfSurzr £ \nr$

_
‘ou oat To
9 7 ThZtfr. AptJjL
Ajhrf-fiTu fptz/'SAc A CUMrsi: f3 02$j3

.(*&££of I

LIST OF PARTIES

kxl All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
MAGWOOB V PATTERSON,561 U.SS 320 (2010)
UNITED STUDENT AID FUNDS V. ESPINOSA, 559 U.S, 260(2020)
JOHNSON V.-. U.S., 544 U.S, 295 (2005)
DEAL V, U.S., 508 U.S. 129 (1993)
HAINES V. KEENER, 404 U.S. 519(1972)
FEDERATED DEPT STORES V. MOTIE, 452 U.S, 394
BORENKICHERIV, HAYES; 434 U.S, 357 (1978)
NORTH CAROLINA V, PEARCE, 395 U.S, 711 (1969)
CRANGLE V.,KELLY, 838 F, 3d 673
MCLANEY V. BELL, 59 S.W. 3d 90 (Tenn.2000)
BLACKLEDGE V., PERRY, 417 U.S. 21 (1974)
eOLTEN V, KENTUCKY, 404 U.S. 104(1972)
UNITED STATES V JACKSON. 390 U.S, 570 (1968)
NTCHOLS V UNITED STATES, 106 F, 2d. 672 (8th cir,1901)
UNITED STATES V TUCKER, 404 rU.S. 443 (1972)
MABRY £ V, JOHNSON, 467 U.S.3504 (1972)
Enwell V. DOGGS, 108 U.S, 143 (1883)

RELATED CASES CON'T
U.S, V. BR0CE. 488 U.S, 563 (1983)
BRANDON V. WRIGHT, 838 S.W,2d. 532 (Tenn, Ct, App. 1992)
CANTRELL V EASTERLING.M348 S.W. 3d. 445 (Tenn. 2011)
MCCONNELL V. STATE, 12 S.W. 3d 795,798 (Tenn.2000)
BROWN V BROWN, 281 S.W. 2d 492, 497 (Tenn. 1955)
SMITH V LEWIS, 202 S.W, 3d 124, 129 (Tenn, 2006)
SHiFIY V. MITCHELL, !$@ Tenn, 48, 215 S.W, 405
KALEB V, FEUERSTIEN, 308 U,S,,433(1940)

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

U~j£

mA&u&aJv.PmvrfrJj^t u.s.3%o(z^q)
£r/W34-2-

?T3gr F. 3d

(j/h etc200%) l~j^5

3~omsosJ i/1 urfznJ?rAns, iwus.^e^jos 8^*3^
^Aufp v. K2rV2ij i/of us. SiHQ'irjd
1
D^AM v. u«j\rzo sfArtSjsov u.s. mssrmy)
&

Yncu>JZ*> V- QtUjSn -5-u/. 3d 9oc^.%ooj

iDorZAffc! rc.hz.r V, tt/dlS, <V3^ Us. Z97C/9/D

U

M&rrh coroUsJ&Xt f^TxULj Sh3 US. *21701*0 Iir2^ovn^S i/ l^wrucmj ho7 us. u>H
C— A<£-PP l/J I/- 5* ir&/UC^o<vi bZ-j L{t2^ i/.s ■ m
ULo^cLido^ I/ ptrrdj H I 7 (/ s.
STATUTES AND RULES
!%■

Tennessee Code Ann §40-20-111(b)
Tennessee Code Ann §40-35-210£c)
Tenn . Rules of Criminal Proceedure 32(C)(3)(C)
Tennessee Rules of Criminal PRocedure Rule 36,1
Federal Rules of Civil Procedure Rule 60(b)(4)

OTHER

-fftloLz.

of ^\jJhoarn5

oxrto

Po-Ql,
'i/zJlf^P SfhVLS ]/ 'J-ftC.&oJj 1*10 U/J. 570
l^lCMOLS ]/ UAHfZcJ 5 T/fflF) lO& F. 2-d dj'17- M/O /C52/EF (/ cors>r^ aM7AfpiJM>L

yimultl,

22.
X3

370

V 2tf 7^3 £&£&)
V/UIUjJ JTfcfcd (/ '/t/C-^£5J V^i/ £/,5, ^Y3CJ'blX)
^5
MftbfLb 1/f F50h)3o^J-.
U-S.So’i
i/ ^A66s
1£
'J 10*6 t/.$.
midifVy)
16
93^5
■ 2c/S3XCtuj mi)
c/wrrx^. |/ Z-kSrzrt-ufO)
?mJ.,3c)
o
(Twr.^ottf
4^ y#-x
UA/rnd 5/4TE5 (/
It,
W tb
DToujs3 \f n
r
'
y
SM V.Lu2J^S^ So)
o£7
72 ^ /2-t^
?tmv& v. mi ulhzllj 'V2- TW*J.
*l¥ 2-15 $.us-kCQ 2%
Kaulq !/ F2j2.rjr/2j
b 3oS" US.
- Ll/

</ 4 ® I!I w ^

%

t)

'-‘/O',

TABLE OF CONTENTS
OPINIONS BELOW

1

SL

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A

reconsideration of Sixth Circuit court of appeals

APPENDIX B Opinion of Sixth Circuit court of appeals

APPENDIX C District Court opinion

APPENDIX D Tennessee Supreme court Opinion

APPENDIX E Tennessee Appeals court Opinion

APPENDIX F Tennessee Trial court opinion

3
V
b

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
Ixi For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix 1®!
the petition and is
[XJ reported at 2020 IUS. Add, Lexis 16594
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix _C
the petition and is
]

[xi reported at 2019 U.S. Dist. Lexis 192446
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
(xjJ For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix J2____to the petition and is
|X2 reported at E2016-00006-.qr.-Rl 1-cn
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the Tennessee Court of Appeals
court
appears at Appendix _EL
to the petition and is
|X] reported a.t.E2016-00006-SC-P.11-CD_____
5 or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

to

JURISDICTION
xfx ] For cases from federal courts:
The date.nn.which the United States Court of Appeals decided mv case
was Mav.,-22 / 20200 - /
[ ] No petition for rehearing was timely filed in my case.
Cxi A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: July 14. 2020
and a copy of the
order denying rehearing appears at Appendix _A.
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[X J For cases from state courts:
The date on which the highest state court decided my case was Nov 16,2017 .
A copy of that decision appears at Appendix p
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

SL

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional
Constitutional
Tennessee Code
Tennessee Code

Due Process rights under the 14th Amendment.
Right&sunder The Sixth Amendment Rights,.
Ann§40-20-111(b)
Ann§40-35-210(c) (2000

3

STATEMENT OF THE CASE
In 2004 Frazier through a Negoiated Plea agreement pled guilty to
twooFelony Evading Arrest charges to Be Ran Concurrent, In 2014
Tennessee Supreme Court Promugated Tenn R. CRim P, 36,1 which
allowed a Petitioner to coiSEect an illegal sentence. That same
year Frazier filed the motion Because The Sentences agreed to
were illegallyvran concurrent with eachother invidlation of
Tenn Code. Ann 540—20 —11(b) and Tenn.R. Crim.. Bk' 32(G)3(C). The
Trial C6urt initially denied the motion, and after remand from
the Appeals court, Frazier was allowed to withdraw his plea agreement
with the agreement to plea to a new sentence. The Court adopted*,
the agreed order and entered
Frazier filed another motion
that the state sentenced him
Notice to Frazaei^rthe trial

it in July 21,2014./In April 2014,
under Tenn. R. Crim., P.- 36.1 arguing
illegally again. In August without
court entered a order granting this

motion, vacating the New entered judgments and agreed order as
void ab-initio,and set the matter for 3a evidentiary hearing.
In December the trial court conducting the hearing without appointing
Counsel where Frazier acting Pro-se attempted to defend his case.
In Jan 2016 the trial court entered a order denying the motion
as moot due to the expineddnature of the case. Frazier appealed
arguing that the record was incomplete and the transcripts altered
the appeals court affirmed the trial courts finding. The Tennessee
SUpreme C6urt denied review In November of 2017. Frazier Then
Filed a 2254 in Federal Disctict court in June 201.8. The District
Court denied the petition on Nov 11 of 2019. Frazier Timely filed
a appeal, and the Sixth Circuit in the Order denying recognized
that while the July 21, 2014 judgments would have reset thb
limitations period, they were vacated as void ab-initio. Frazier
Filed a Motion for reconsideration which he clarified that he
was appealing, directly from that decision to vacate the orders
as void ab-initio, and that his case was from a appeal as of
right. IFrazier. also argued that the record was incomplete in the
case and provided the court with the agreed order since the district
court refused to mention anything about this argument

as well

as the appeals court in it's initial order. On July14, 2020

V

STATEMENT OF CASE CON'T
the Appeals court denied Fraziers motion for reconsideration
despite the record being incomplete. On Oct 14 2020 Frazier
attempted to file a Application for a In Chambers One Judge Hearing
Pursuant to Rule 23 of Supreme COurt rules asking for a single
judge to hear my case. The Supreme court Clerk returned this
as not being able tofile. In September 8, 2020 Frazier attempted
to refile Lhis application which was again returned. This application
l's what follows.:.'

s

REASONS FOR GRANTING THE PETITION
The Sixth Circuits Decision is in conflict with this courts Decision
iu Magwood V. Patterson, 561, U.S. 320(2010). It's also in conflict
with the courts decision of Johnson V. United States

544 U.S.

295 (2005) on What is considered as generated at the own petitioners
behest. It is also in Conflict with The Pro-se Standard of Review
courts are required to give petitioners in Fraziers position.
That case is Haines V, Kerner, 404 U.. S.- 519(1972).

->££

N SupfbrT

CONCLUSION

The petition for a writ of certiorari should be granted.

Respectfully submitted,

Date:

12-

<20

L

IN THE UNITED STATES SUPREME COURT
ju

DAVID T. FRAZIER,
PRO-SE APPEALLANT

*
*

*
*

V.
HERBERT SLATERY III,
DEWAYNE HENDRICKS.
FCC
r
APPEALLEE.

—

forprst

ON /\?Pi^L Vrort fyrt STf-Jh
czvculTcojrT0$
aZ>. 1 :Hjy-cV-0a%77

*
AfPia-i- -Y£r.3
CTTY.
70

'!

&O

NX'Z'fflOThtdDOrft ~&J S(JppO^iJZ OF PzXW'J
-—^rxrpL^j^vvio
_________ -____
Comes now, DAVID T. FRAZIER, pro-se (Frazier herein), and
ft

respectfully submits this motion :of : a in chambers one "judge hearing.
Specifically, Frazier request this court reverse the lower court(s)
■r>

rulings based on the reasons that are set forth as follows:
<fTHE LOWER COURT STATED THAT FRAZIER HAS NOT INDENTIFIED
ANY POINT OF LAW OR FACT THAT THIS COURT OVERLLOKED' .
OR MISAPPREHENDED IN DENYING A CERTIFICATE OF APEALABILITY.
In denying Frazier a certificate of appealbility, the Sixth
Circuit appeals

Court made the above statement in it's reconsideration.

This statement conflict their own holding in Cr_an_gJLe__V._Ke_ll_y ,
8383 F. 3d 673 (6th Cir:2016) as well as this courts holding in:
Magwood:V
a

Patterson, 561 U.S. 320 (2010). And Frazier will point

out why:
Frazier In 2014 Recieved a new judgment and new plea agreement,
in State Case No 04-097, due to the illegal nature of the plea
agreement containing the inducement of concurrent sentencing.
*

/

This violated Tennessee law, because Frazier was released on bomd
when he was charged for another charge for Felony Evading areest.
On July 19

2004, Frazier, Through Counsel agreed to plea

guilty to two Felony Evading arrest charges in exchange for Two
two year sentences to run concurrent wibh one another. Unaware

(1)

°

at the time, these sentences were illegal and the plea void,
because

pursuant to Tennessee Statute and Criminal proceedure.

Tenn. Code. Ann §40-20-111(b) and Tenn. R. Crim. P.:32(c)(3)(C)
t

mandates that these sentences be ran consecutive with one another.
Thus on July 21, 2014 Pursuant to the Newly enacted rule of
(

Tennessee Rule of Criminal proceedure 36.1, a Petitioner coutd
"at any time" file a motion to correct a illegal sentence. Frazier
filed the motion, and after Remand from the appeals court in Tennessee
was able to withdraw his void plea agreement entered in 2004.
As these prior convictions were used to enhance a unrelated Federal
Sentence, Frazier followed the holding in Johnson V. United States,
544 U.S. 295 (2005). In April of 2015. Frazier filed another Motion
to correct an illegal sentence, because the

State again sentenced

Frazier illegally again by entering corrected Judgments, and not
placing on the Record that the illegal sentence was a material
component of the negoiated plea agreement. Tennessee Rule of Criminal
proceedure required that if the court found that the illegal nature
of the sentence was a material component of the plea agreement
and the defendant wishes to withdraw his plea to state this on
the record in the order setting aside the invalid plea agreement.
Also the new rule did not contain a provision to enter corrected
judgments.
Without notice to Frazier, nor to standby counsel, because
the trial judge did not appoint counsel as required under the
rule if a defendant states a colorable claim, the trial court
in August 2015 entered a order setting the matter for an evidentiary
hearing and vacating the eariler trial judges judgments and order
agreeing to allow Frazier to withdraw is invalid guilty plea.

(2)

-

The Newly appointed trial judge stated that the Motion which
became final 30 day's after it was entered, was being treated
as validity pending on remeand, vacating the agreed order and
corrected judgments as void ab-initio. As stated eariler, with
out notice violating the due process, the court in december 2015
|

|

held a hearing, where it applied a new case law From the Tennessee
Supreme Court that recognized a departure: from the holding in
in the Tennessee Appeals courts holding that the rule extended
to Expired sentences (it should be recognized that Frazier never
asserted that his sentences in this matter were expi'red because
onder Tennessee void judgments means that the sentence has never
started). The trial court in this hearing abandoned his

•proper

role as a Fair, netural judge, and instead entered the role as
A District Attorney, feircely defending the judgments. Thus Frazier,
acting pro-se because no counsel was appointed, and Standby counsel
had no obligation,

had to defend against not only the A.D.A but

the judge acting as a District Attorney. The Trial court, brought
up Fraziers unrelated Federal sentence, and based it's ruling,
not on the law of the case, but his belief that the only reason
for Frazier bringing the cause of action was so that he could
then challenge his Federal sentence. All this can be seen in it's
order of Dismissal, Indeed it's important to note at this time
that the transcripts has been altered in this case, and that Frazier
filed a affidavit attesting this fact with the Appeals court in
Tennessee)
In any event, the newly appointed trial judge placed a unfair
price on Fraziers appeal rights because of his belief that Frazier
was,:gsmg the new rule unjustly to then chanllenge his Federal

(3)

sentence. This effectively served to

"chill" his constitutional

right to appeal and to be sentenced to a legal sentence as the
court sentenced Frazier illegally

twice. This was A biased, and

vindictive decision maker which denied^ Frazier his law ful right,
simply because of the trial judges belief that Fraziers true motive
was to hcallenge his Unrelated Federal sentence. Something he
discribed as "unjust and difficult to imagine". See Page 19 of
The December 2015 Transcripts Line 7-9.
i

Further, on July 14 2020-the Sixth Circuit court of appeals
denied reconsideration stating that Frazier has not identified
any point of law or faGt that this court overlooked or misapprehended.
Frazier would submit that Under the Standard of Haines V. Kerner,
404 U.S. 443 (1972) Pro-se individuals needed only to state a
claim on which he could prevail. A court should grant the motion
despite failure to cite proper legal authority, poor syntax and
sentence construction, confusion of legal theories, or unfamilarity
with a pleadings requirments. Having said this, Frazier points
to the law and fact's that the court overlooked and misapprehended.
* FRAZIER CITED SIXTH CIRCUIT PRECEDENT OF CRANGLE
V. KELLY, /838F. 3d. 673 (6th Cir. 2016) FOR THE PROPOSITION
‘TO"#”THE'FACT IN LAW THAT THE NEW 2014 JUDGMENT (s) WERE
NEW JUDGMENTS THAT RESET THE ONE YEAR WINDOW UNDER 28
U.S.C.Sv §2244(d)(1): A or D.
The Sixth Circuit in its initial denial of a certificate
of appealbility, stated that although the Corrected judgments entered
in 2014 was a new judgment which opened a new one year window,
the trial court vacated that as void ab-initio. But the Court failed
to Recognize that Frazier was challenging the fact that the trial
court could not Vacate those judgments and re-impose the eariler
judgments because of the agreed order allowing Frazier to withdraw

(4)

, *

the 2004 plea agreement.

But on Page9'|;n the Crangle opinion the

court dealt with similiar judicial creation or curation. In the
third paragraph of the Slip opinion, the court stated that :"The
state walked back the trial court statement concerning post release
and reworded Crangles sentence.
The same happened here, the newly appointed walked backed and
revisited a settled matter when it stated that the State never
\

agreed to allow Frazier to withdraw his invalid plea. And that
the illegal sentence was not contained in the plea agreement, or
not a material component, which is the same saying. This can easily
be contradicted

by the record in this case. It is clear from the

2014 trial transcripts that

Frazier plea agreement was

set-aside

by the retired judge Ross. The State and court and Defendant agreed
an4 signed the order which the court adopted. This can be seen
on Page 7 of the 2014 transcripts line 17 the trial judge clearly
!

stated "We set aside the original plea agreement". Event though
most of the Transcripts were altered, it is clear that the parties
intent to:allow Frazier to withdraw his plea. Also in the 2015
Transcripts the stand by counsel can be heard explaining to the
\

trial judge that the eariler trial judge did allow Frazier to withdraw
his plea. Thus the Crangle court stated this when dealing with
the states walkback of Crangles Post control release;"No matter
the label, the November 2010 order changed the substance of his
sentence and thus amounted to a new judgment. A state court decision
to affix the label nunc pro tunc to an order does not control the
Federal questions

whether the order changes his conditions of

confinement. The Crangle- court went on to state, because the November
19 2010 nunc pfo-tunc order created a new sentence it was a new
(5)

'

judgment that reset the one-year statute of limitations to file
a habeas corpus petition under 28 U.S.C.S §2244(d)(2).
Frazier poses the question of is this fact of the trial courts
order~vaeating Frazier's 2014 plea agreement "new evidence"
not previously discoverable which triggered the renewed limitation
period, and/or if the new 2014 order and judgment a fact to
trigger the new limitations period as this court held in magwood
V. Patterson, 561_U.S_._3200 (2010). Because "as a matter of custom
and usage" This court observed, a "judgment in a criminal case
v
includes both the adjudication of gudltoapid sentence." Deal
V> United States, 508 U.S. 129 (1993). And because the court
entered a invalid judgment in 2014 a second time, uand Frazier
wished to have that corrected,;Frazier appealed again to the
Trial court but was punished for doing so. This brings us to
Fraziers next showing of a misapprehension of the law by the
lew^r courts of law and Fact.

* THE state court: newly appointed] in walking back
THE AGREED ORDER REVISITED A SETTLED MATTER,
VIOLATING RES-JUDICATA
Frazier submits that

when the Newly appointed judge stated

the illegal nature of Fraziers sentence was not a material component
of his plea agreement, effectively walking back the agreed order,
he revisited a settled matter. Specifically the matter.of whether
or not the illegal sentence was contained in the plea agreement.
Since it was well settled in the law that Frazier and the State
looked at when the retired Judge gave the parties time to review
the law on this issue which was Mclaney V. Bell 59 S.W. 3d 90
(T-gnn 2,000) it was settled that the illegal nature of the sentence
was a material component of the plea agreement

(6)

as made clear

when the parties came back on the record in the July 2014 transcripts.
In Support of this, Frazier points to the July 21, 2014 transcripts,
page 3 line 23-25, where Frazier clearly states that the A.D.A.
was trying to argue against it being a material component of
the plea and Frazier bringing this up to the Judge. As Frazier
having notice that this hearing was going to take place brought
along the relevant case law to show the;law of the
D C*"ia ^
O’ /■>
A ■P +•

A

1j. J_
-t i i

C—r

■*»

1

1■ _/
R
^ \r 1

lOvjAini

1| o
ft

case. See

•

«•*» 4“

+- V\

uilc

to withdraw his pica.

1
j_

T.T

Ci v» j

4“ K

1.10

r> O V*
fj cj. a. u. jl v—

O v» r-\ /-> /A
ca
a.
vi.

4- /-v

w

oil /“VT.T
ca a. *. O vV

I? 1i* O
i l

T A "»*

Thus this was a settled matter. This
/

p rtti v> f

vuui. u

i n

j.u

4-V» «

unb

o n r* /-«

^>doc

r»r
v/j.

1?

r> 4- o H

i CvaCi. o uLu

o o «“» v* 4* nri

i/Cpai

-t-v 4-

L

C 4u cwl.

y

n
o

\7

t *

rr> pv -i 4* i

mU 1 u xb )

452 U.S. 394 (1981) Held: The Doctrine of Res-judicata applied
to preclude the refiling retail purchasers from relitigating
thier Federal claims, even though parties in similiar actions
against the same defendants, successfully appealed the judgment
against them, the res-Judicata consequences of a final unappealed
v
judgement on the merits not being altered by the fact that the
judgment may have been wrong or rested on a legal principle
subsequently overruled in another case, there being no general
equitable doctrine countenancing an exception to the finality
of a party's failure to appeal merely because his rights were
"closely interwoven" with those of another party, "simple justice"
not requiring rejection of (accepted principles of res-judicata
where no grave injustice was being done by the application of
these principles, and public policy also not requiring any other
result. Thus,"had not the state agreed to allow Frazier to withdraw
his plea, it could have appealed the decision. It did not

(7)

that

V

judgment became final 30 days after it's entry , yet the trial
courts Judicial curation, treating the

matter as validity pending

remand was extra-judicial and vindictive and violated Res-judicata.
* THE TRIAL COURTS RULING EFFECTIVELY "CHILLED"
FRAZIERS RIGHT TO A LEGAL PROCESS, AND APPEAL AND
WAS .WINDICITIVE IN NATURE.
The trial court in its order of dismissal was biased and
vindictive. It was not based on any aspect of law, instead was
based on the trial (Newly appointed) judges belief that Frazier
was unjustly using the new rule to then challenge his unrelated
Federal sentence. This can be seen very clearly if read in this
context in this order of dismissal, where Six pages is dedicated
specifically to Fraziers unrelated Federal sentence. For this
courts convience, Frazier will point out some of those Vindictive
and biased Statements made by the New trial judge.
On page 051 of the record on appeal, the trial court speaks
of Fraziers unrelated Federal sentence. Stating that petitioner
S

did atmit that his true motive in pursuing this motion was to
vacate at least one felony conviction off his record, or agree
to plea to a new plea of identical terms so that he could thereafter
\

challenge the leng-fft of his current, unrelated Federal sentence.
In the last paragraph of the same page the court stated: "The
petitioner admitted that a vacated state conviction, or subsequently
re-entered'.plea, could shorten his Federal sentence and possibly
enable his release from Federal prison eariler than expected,
[record page 051-052], His discription of Fraziers attempt to
have these illegal sentence's corrected or removed as "A more
unjust consequence of this collatteral attack, were petitioner

(8)

to sucessfully obtain his desired relief, is DIFFICULT FOR THIS
COURT TTO IMAGINE". It must be noted that Frazier never made
t

the statements that the Trial court taxes hi/ty with making. Although
Frazier did state that he was correct in his assessment that
Fraziers Federal sentence was enhanced by these convictions
and that Frazier wished to be free from Prison, when asked why
he was attacking his prior convictions, Frazier stated that he
was trying to correct an illegal sentence. He characterized
my reasons as High minded and prepostrious. The false state­
ment that

Fraziers true motive pursuing this motion was to

vacate at least one felony off his record is not supported on
hte record. Inded on Record page no. 053 in the second paragraph

*

the court stated: "Currently this court is not left with any
ability to grant any meaningful relief by distrubing the terms
of an agreed plea beyond simply imposing a new sentence without
petitioners

consent, or alternatively vacating a felony conviction

by plea from the record of a multiple Felon and possibley assisting
petitioner in obtaining release from Federal prison eariler
than anticipated. Again in Record page no 055 the court stated:"
Allowing petitioner to pursue his claim would merely afford
petitioner a means to challenge the length of his Federal incarcefation
sentence. Even a subsequently re-entered plea to these state
charges would allow petiitoner to say his Federal sentence was
unlawfully enhanced with-'- now vacated and subsequent, as opposed
to prior state felony convictions." And as a parting shot to
Frazier, the court stated:" If either the legal or factual analysis
guiding this court to dismiss this matter as moot and expired
were to come under scrutiny and review, it should be ndted that
(10)

that the petitioner is nevertheless entitled to the relief sought
as

this court did not find the illegal concurrent sentences

at issue in this case to have been a material component

attendant

to a plea::following an evidentiary hearing". The trial judge
did this because of his attempt to bar the order of dismissal
from being used in Federal court where Frazier's sentence was
enhanced. But it's the realibility that controls. These are
not realiable in Federal Court for enhancing purposes.
The Determination of guilt is in question. In any event, this
\

is a total vindicitive action which is biased toward the OlX'fjJcJojjT.
Based on this courts holding in Borenkircher V. Hay_e_s, 434 U.S.
357 (1978)

considering vindictiveness Holding:" This court held

in North Carolina V.. Pearce_.___395__ U.S. 711(1969) that Due Process
Clause of the Fourteenth Amendment 'Requires that Vindictiveness
against a defendant for having sucessfully attacked his first
conviction must play no part in the sentence he recieves after
a new trial

I M

. The same principle was later applied to prohibit

a prosecutor from reindicting a convicted misdemeanant on a
felony charge after the defendant had involkt,^ an appeallate
remedy, since in this situation there Was also a

"realistic

likelihood of vindictiveness I tf . Blockledge V. Perry, 417 U.S.

at 27.
But What about a Judge acting as A District Attorney and does
not like the fact that A Defendant sucessfully attacked his
prior conviction and sentence, and vacates all the eariler Judges
holdings in a Vindictive manner? Does the Fourteenth Amendment
safe Guard a Defendant from this situation? In those cases,
this court was dealing with the states unilateral imposing of

(11)

a penalty upon a defendant who had chose n to exercise a legal

the Due process violation in cases such as Pearce and
Perry lay not in the possibility that a defendant might be deterred
from the exercise of a legal right, See Colten_V_.__Kentucky.,
407 U.S. 104; Chaffin V. Stynchombe,412 U.S. 17, but rather
in the danger that the state might be retaliating aginst the
accused for lawfully attacking his conviction. See Blackledge
1
V

Supra 417 U.S. At 26-28, This effectively is what the
state did in this instant case. It Punished Frazier for successfully
attacking his State conviction, after it sentenced Frazier illegally
again the second time. To Do so because Frazier has done what
the law plainly allows him to do is a Due process violation
in the most basic sort. See North Carolina V. Pearce^ Supra
395 U.S. At 738, and

for an agent of the State to pursue a

course of action whose "objective" is to penalize a person's
reliance on his legal rights it "patently unconstiTUT^W^C, .
Chaffin V. Stynchombe, Supra, 412 U.S. at 32-33. See United
States V. Jackson. 390 U.S. 570.
And this very treatment to Frazier and individuals in prison
of t/>£ inherent existance of such a punitive policy would, with
respect to those still in prison, serve to "Chill the exercise
of basic constitutional rights". Id at 582, 88 S. Ct. at 1216.
But even if the First conviction has been set aside for non­
constitutional error, the imposition of a penalty upon the defendant,
for having successfully pursued a statutory right to appeal
or collateral remedy would be no less violation of the Due process
of law. A courts judicial curation not founded or based upon

(12)

1

law or fact to deny redress

would also be flagrent violation

of the rights of the defendant. Nichols V United states, 106
F. 2d 672 (8th Cir. 1901). This calls for the severest censure.
This court in Johnson V. United States 544 U.S. 295 (2005) imposes
a strict time limit upon the attack of a State conviction used
to enhance a Federal sentence. In stating that the state court
vacatur is a matter of "Fact" for purposes of the limitations
rule, both being subject to proof and disproof. This court,
\

while recognizing the reality ot the prison system Stated Due
dilligence "is an inexact measure of how much delay is toor
much11. Johnson _, 544 U.S. 390 at 309 N.7, but stating it entails
"prompt action... as soon as the petitioner was in a position
to realize that he ha[d] a intrest in" "Challenging the conviction
and thereby generating the state court order that serves ao
the factual predicate, ij. at 308. As Soon as Frazier became
aware of the New rule of 36.1 In

Tennessee which allow the

defendant at the time to file a motion to correct an illegal
sentence "at any time" he filed the motion within Two months
of it's enactment. Yet the end result was the State court condemmg
the practice of attempting to practice his right approved by
th£$

court. Any inordinate delay by Frazier would have been

fatal to his Federal sentence b£ing corrected. Yet the State
court characterized Fraziers collatteral attack as "Unjust,
and Difficult for this court to Imagine for it to provide relief".
And the Sixth circuit approved this practice, by denying Frazier
redress. Thus-, even if Frazier argued the claim wrong, the Court
was mandated by this court to construe any valid claim in his

(13)

r
favor. As this court has stated that a Court is-without
a right to put a price on a right to appeal. A defendants exercise
\

of a right of appeal must be free and unfettered. It is un-fair
to use a great power given to the court to determine extra judicialy
a decision which places a defendant in the dilemma of making
a unfree choice. By walking back the agreed order, allowing
t

the State to breach it's contract made in July of 2014, hte
trial court attempted to hide;this fact by failing to place
in the record the agreed Order to withdraw his plea in the appeal
\

record. This was prejudicial because the reviewing courts was
without this document, yet when brought to the sixth Circuits
attention, it still denied Frazier redress.
See Worcester V. Comm Of Internal Revenue, 370 F. 2d 713 (1966).
Due process of law, then, requires that this type of vindictiveness
against a defendant for having successfully attacking his first
conviction must play no part in the subsequent judicial proceedings..
And since the fear of such vindictiveness may unconstitutionally
deter a defendants exercise of the right to appeal or collatteral
attach his first conviction, Due process also requires that
a defendpfj t be freed of apprehension of such a retalitory motivation
on the part of the sentencing judge. Frazier submits that never
did fat think a court could freely violate the lav by such blatent
and flagrent actions by the State trial, court. Holding Frazier
responsible for the State's ignorance of the law is a new all
time low. and Frazier respectfully ask this court, has the system
reached the point, to where it will be ok and affirmed where
courts overlook all the Due process violations, inorder to keep
a prisoner locked up illegally? have we reached the nadir where

(14)

the constitution only serves the rich and well connected? Or
is it still justice and peace for all? Or do we allow the courts
in the State to violate the Klu KLux Klan act, which was enacted
to curb states bent on violating citizens rights which are Federally
protected, mainly citizens of Color? As the order of dismissal
does not attempted to hide it's ultimate reason for denying
t
Frazier relief, altering the transcripts, and walking back agreements
made by all parties, including the court, then blaming the Defendant
Frazier for the mistakes made by the state in entering the order
and judgments by holding :"Only petitioner appeared savvy enough
to understand the potential opportunity to use this new rule
of State proceedure to then challenge his current Federal sentence?
Does not a defendant have a Due process right to be sentenced
based upon accurate and reliable information? U_nfJ^6dStai_tes_V
404 U*s- 443 (1972) says we do. And did this court not
approve the practice of challenging Prior invalid state convictions
used to enhance a sentence in do^sj3n_V^Jj^i^ted___S_Lates, 544
U.S. ,295(2005)? In Closing, Frazier submits, will this court
be the first judicial review which is a fair one founded upon
law applied as written? Will this court provide a true review
of I Pro-Se pleading who does not have access to State case
law and now only is awarded one day a week for three hours to
to legal research?
THE INCORPORATION OF RULE 50(b) AND
IN GENERAL
Frazier Submist as his last claim for relief, fiis reasoning
60(b)(4) to this unique ease.
nsasotanfehe applicability of rule

(15)

This reasoning is simple. The trial court in this case agreed
that the sentences are illegal. He also agreed that the determination
of guily was pursuant to a guilty plea, meaning that Contract
liw applies. Mabray V.,Johnson,467 U.S. 504.
Generallyva contract made contrary to statutory authority
is void under civil law, Ewe_ll_V_._J)aggs_j_ 108 U.S. 143(1883)
and criminal law United_States v. Broce,

488 U.S. 563 (1989).

Under Tennessee contract law, Fraud ercnders all contracts
vo?i ab-initio as when the Trial court vacated the 2014 judgments
as void ab-initio. This is at the option of the defrauded .party
838 S.W. 2d 532 (Tenn. Ct. App. 1992).
Moreover, this is not the main reason of Fraziers Reasoning
of rule 60(b)(4)'s applicability under it's plain language
and a pro-se reading. Frazier submits that there is no law
on the books that allows a court to leave in place viod judgments,
after they have been found so} At least Frazier has not found
any. As the Sixth Circuit stated in in Re: Ruehle, 412 F. 3d
619 (6th Cir. 2005) either the judgment is void or it is isnt.
And a trial court has no jurisdiction to leave in place a void
judgment. In Tennessee, is a contract providing for a conviction
at minimum is valid, but Ithe sentence ^is- illegal and therefore
void, the judgments of conviction is incomplete. Cantrell V.
Easterling, 346 S.W. 3d 445

455-56 (Tenn.2011) Tis case stands

for the proposition that the judgment has both a sentence and
conviction. Both of these components must be valid to be enforceable.
Likewise

is the fact that the Criminal courts jurisdiction

is limited to legislative'.enactments and must be executed in

(16)

in compliance with the acts

rules. McConnell V._Statesj_ 12

S.W. 3d 795, 798 (Term. 2000), and the trial court cannot usurp
the jurisdiction by consent of parties, Brown V. brown, 281
S.W. 2d 492, 497 504 (T3nn. 1955) at 501.
The important factor is that Frazier shown a Fact that is
subject to proof and or disproof. That fact is the Trial courts
Order vacating the judgments in August of 2015 and the December
30, 2015 order of dismissal dismissing Fraziers challenge to
his "new 2014 judgments and plea agreement/order entered".
In that order or orders the trial court agreed that the sentences :
were illegal in this case and were pursuant to negoiated plea
agreements. The Factual nature is if the trial court, for the
reason's explained and that follow, was his holding correct.
Frazier also submitd is if these cases
f/

in support is still

good law, or are they just become locker room banner? Since
the Trial court is in agreement that Frazier's Due process
rights has been violated in this case,

Fraizers sentences

are illegal, does this vacating of illegality intrude on the
comity between the state and Federal government,or the intrest
of finality, as well at the treatment-of void judgmehts in
general? Thus Frazier submits, Rule60(b)(4), the vrule carries
two types of proceedures to obtain relief..Because the State
judge in this case is in agreement that the sentence's are
illegal thus rendering the Negoiated plea agreement void as
well, and pursuant to Tennessee Supreme 1 court law "When the
face of the judgments 6r record of the underlying proceedings
shows that... the sentences is illegal, such sentence creates

(17)

a void judgment. Smith V._Lewis, 202 S.W. 3d 124, 129 (Tenn.
■2006); MClaney V.

Bell,59 S.W. 3d 90, 93(Tenn. 2001), such

judgment is viod ab-initio, it is /as if the judgments has never
existed: Indeed, Tennessee Supreme court stated: "Courts derive
their powers to adjudicate not from parties, but from law. A
court acting without jurisdiction of subject matter jurisdiction,
or beyond the jurisdiction conferred upon it, it therefore acting
without authority of law and it's judgments and decrees in so
acting are viod and bind no one. Sheffy V. Mitchell., 142 Tenn,.
48 215 S.W. 403.
Moreover, the law with reference to void judgments is ^Jell
settled and stated in 1 Freeman Judgments, 643 Sec. 322:
" A judgment viod upon it's face and requiring only an
inspection of the record to demonstrate it's invalidity
is a mere nulity in legal -.effect
no judgments at all, conferring
no right and affording no justification.
Nothing can be acquired or lost
by it, it neither bestows nor extinguished any
right, and may be sucessfully assailed whenever
it is offered at the foundation for the assertion of any
claim of title. It neither bind nor bars anyone. All acts
performed under it and all claims flowing out of it are
void the parties attempting to enforce it may be responsible
at trespassers. The purchaser at a sale by virtue of it's
authority finds himself without title and without redress]
No action upon the part of the defendant, no resulting equity
in the hands of third person, no power residing in any
(18)

legislative or other department of the Government can invest
it weith any elements of power or vitality. It does not
terminate or discontinue the action inwhich it is entered,
*

nor merge the cause of action; and it therefore cannot prevent
the plaintiff from proceeding to obtain a valid judgment
upopn the same cause, either in the action inwhich the void
judgments was entered or in someother action, "The fact
that the void judgment has been affirmed on review in an
appellate court or an "order of judgment renewing of reviving
it entered adds nothing to it's validity I

!!

. Such judgment

has been characterized as a dead limb upon a judicial tree
which may be chopped off at any-time, capable of bearing
no fruit to plaintiff, but constituting a constent- menace
to defendant'.' It has been said by This court, that because
a void judgment is null and without effect; the vacating
of such judgment is "merely a formality" and does not intrude
upon the notion of mutual respect in Federal/State intrests.
F.aleb V. Feuerstien, 308 U.S. 433, 438-40 (1940).
Frazier has not had a full and fair opportunity to litigate
this dispute. Not is Frazier aware of any case law overruling
the cases dealing with viod judgments and the courts treatment
of such.
* CONCLUSION *
As the court can easily conclude Violations of Due process
among other laws in this chse have occurred, Frazier request
this honorable judge review and afford a liberal reading
of this case, keeping in mind as a Federal Inmate, the BOP.
By policy Restrict access to Direct case law in thier law

(19)

L

libraries,and Frazier has had to act Pro-Se throughout this
whole case. Frazier Submits that he has been sentenced illegally
twice in this case.Frazier request that this court reverse the
l©wer courts rullings on conclusions of law and findings of facts,
and provide a proper appeal. Frazier also points out that he
did not recieve notice of the evidentiary hearing taking place,
as the trial court did not provide Frazier nor Standby Counsel
a copy of the August order inwhich^he order a hearing and counsel
be provided, and where he also vacated the Judgements and Order
allowing Frazier to withdraw his 2004 plea agreement.
* PROOF OF SERVICE *

f sy
'

I assest that a true and correct copy of the above motion was
sent via UiS. Mail, Postage pre-paid to the foilwing .address

Dated// :

S//:
DAVID FRAZIER PRO-SE

(20)

